CD

In the

Supreme Court of the United States

FILED
MAY 2 8 2019

Frances K. Konieczko,
Lawrence W. Konieczko,
Laurie F. Konieczko,
Petitioners,
v.

Adventist Health System/Sunbelt, Inc.,
sponsored by the Seventh~day Adventist Church,
d/b/a AdventHealth Altamonte Springs,
formerly Florida Hospital Altamonte,
and d/b/a AdventHealth Orlando,
formerly Florida Hospital Orlando,
Respondents.
On Petition for Writ of Certiorari
to the Florida Fifth District Court of Appeal

PETITION FOR WRIT OF CERTIORARI

Frances EL Konieczko
Lawrence W. Konieczko
Laurie F. Konieczko
Self-Represented
PO Box 536253
Orlando, FL 32853

s.

RECEIVED
AUG 13 2019
OFFICE OF THE CLERK
SI IPREME COURT. U.S._

QUESTIONS FOE REVIEW
1. This Court, the Supreme Court of the United
States, granted enemy combatants the right to be
heard, therefore, shouldn’t we, Amerieanrborn
citizens of the USA, with the husband of Frances,
and the father of Lawrence and Laurie, as well as
the grandfather of Lawrence and Laurie, having
been honest, decent, patriotic American men who
sacrificed for this country, the United States of
America, and served honorably in the United
States military, be justly granted full and fair
opportunities to be heard?
2. Shall this Court allow any judge to abuse his
or her power and illegally violate the Constitution
of the United States and unconstitutionally deprive
us of our civil rights and other rights guaranteed to
us by the Constitution of the United States,
including, but not limited to, our right to he heard?
3. Shall this Court allow judges to willfully,
intentionally, and maliciously make false
statements, refuse to disqualify themselves when
served with timely, legally-sufficient motions to
disqualify, and illegally not remove a judge when
by law they are required to do so?
4. Shall this Court allow judges to illegally
refuse to disclose exparte communications,
interactions, and monetary transactions?
(Questions continued on next page.)

QUESTIONS FOR REVIEW (CONTINUED)
5. Shall this Court allow judges, lawyers, and
respondents to obstruct justice?
6. Shall this Court allow this case to be illegally
dismissed “with prejudice”, especially when the
defendants have been obstructing justice and
withholding evidence, and this case has not been
amended one time, which is clearly provided for by
the Florida Rules of Civil Procedure, and also for
which there is legal precedent, having been
established by many court cases?
7. Shall this Court allow the record of this case
to stand fraudulently falsified, with Judge LeBlanc,
Judge Frederick Lauten, and judges at the Fifth
District Court of Appeal refusing to have the record
corrected?
8. Shall this Court immediately order the
AdventHealth Care Center Apopka South, formerly
known as the Florida Living Nursing Center
Apopka, to immediately cease and desist from the
unhealthy, inhumane practice of strapping down
patients in their beds against their will?
9. Shall this Court order the respondents to
immediately cease and desist from hypnotizing
patients against their will?

n

PARTIES
The family of William A. Konieczko
Frances K. Konieczko, his wife
Lawrence W. Konieczko, P.E., his son
Laurie F. Konieczko, his daughter
Petitioners
v.
Adventist Health System/Sunbelt, Inc.,
sponsored by the Seventh-day Adventist Church,
d/b/a AdventHealth Altamonte Springs,
formerly Florida Hospital Altamonte,
and d/b/a AdventHealth Orlando,
formerly Florida Hospital Orlando,
Respondents
Attnys for Respondents
Christian Trowbridge, Charles Ingram
2600 Lk. Lucien Dr., Ste. 330
Maitland, FL 32751

m

TABLE OF CONTENTS
Paee(s)
Questions Presented for Review
Parties

•vu
.in

Table of Authorities

.v

Introduction.

1

Importance of Jurisdiction.

1

Constitutional Provisions Guaranteeing
Our Rights...........................................

10

Statement of the Case and Facts.

11

Reasons for Granting the Petition.

20

Conclusion.

21

Appendix:
Florida supreme court
February 13, 2019 statement by clerk...... la
February 27, 2019 statement by clerk...... 2a
Florida 5dca
October 23, 2018 illegal dismissal......
3a
October 30, 2018 illegal disregard for
REPLY BRIEF, complicit / in conspiracy
with fraudulent dismissal
IV

TABLE OF AUTHORITIES
The Supreme Judge of the World
Jesus Christ, King of Kings
and Lord of Lords,
as recorded in the book of John.,

Pages 24, 25

The Lord Almighty, as recorded
in the hook of the
Jewish Prophet, Zechariah.........

Page 24

The Lord Almighty, as recorded
in the hook of Exodus, by the
Jewish Prophet, Moses................

.Page 24

The Lord Almighty, as recorded
in the book of the
Jewish Prophet, Amos................

Page 25

Constitution and Statutes
Pages 1, 2, 3, 5,6, 7, 8,
U.S. Constitution.
9,10,11,13,15,16,18,19, 20,21, 22, 23,
24,25
Amend I, U.S. Constitution...... Pages I, 2, 3, 5,
6, 7, 8, 9,10, II, 13,15,16,18,19, 20, 21,
22, 23, 24, 25
18 U.S.C. 242........Pages 2,8,11
42 U.3.C. 1983....Pages % 8,10, 13,16, 22, 23
v

Rule 10 (e) of SCOTUS Rules.,

.Page 2

Florida Statutes 38.10........Pages 3, 6, 8,10,13
Rule 2.330 of the Florida Rules of Judicial
.Page 23
Administration.
Florida Rules of Civil Procedure,
Rule 1.190 (a)......... .Page 14
Cases

About the right to have a “fair opportunity*
to he heard “before a neutral decision-maker”:
£ Court,
United States S
Hamdi r. Rumsfeld (2004),

.Page 2

United States Supreme Court,
Rasul v. Bush (2004)................

Page 2

Cases listed below - supportive of liberality
in amendments, freely amending, amending
to bring out true forts, and amending to
cause cases to be decided on their

merits:.........
CoJandrea r. King, 661 So. 2d 1250 (Ffe 2nd
DCA1995)
Bostwick v. Bostwick, 346 So. 2d 150 (Fla. 1st
DCA 1974)
Bradham r. Hayes Enterprises, Inc., 306 So. 2d
568 (Fla. I8* DCA 1975)
Craig v. East Pasco Medical Center, Lie, 650
So. 2d 179 (Fla. 2nd DCA 1995)
vi

Lazar v. Alien, 347 So. 2d 457 (Fla. 2nd DCA
1977)
Old Republic Ins. Co. v. Wilson, 449 So. 2d 421
(Fla. 3rd DCA 1984)
Gamma Development Corp. v. Steinberg, 621
So. 2d 718 (Fla. 4* DCA 1993)
Associated Television & Communications, Inc:
v. Dutch Village Mobile Homes ofMelbourne, Ltd,
347 So. 2d 253 (Fla. 4th DCA 1977)
Ujdc v. City ofApopka, 581 So. 2d 218 (Fla. 5th
DCA 1991)
In re Grist's Estate, 83 So. 2d 860 (1955)
Twyman v. Livingston, 58 So. 2d 518 (1952)
Marks v. Fields, 36 So. 2d 612, 160 Fla. 789
(1948)
Walker Fertilizer Co., for Use and Benefit of
Walker w. Cole, 197 So. 777, 144 Fla. 37, 132
A.L.R. 536.
Hatcher v. Chandler, 589 So. 2d 428 (Fla. 1st
DCA 1991)
Walker v. Senn, 340 So. 2d 975 (Fla. l8t DCA
1976)
EAC USA Inc. v. Kawa, 805 So. 2d 1 (Fla. V*
DCA 2001)
Omasta v. BedingGeld, 689 So. 2d 409 (Fla. 5th
DCA 1997)
Kirkland By and Through Kirkland v. State
Dept, ofHealth andRehabilitation
Services, 424 So. 2d 925 (Fla. I®4 DCA 1983)
State Farm Fire and Cas. Co. v. Fleet Financial
Carp., 724 So. 2d 1218 (Fla. 5^ DCA 1998)
Carter v. Ferrell, 666 So. 2d 556 (Fla. 2»d DCA
1995)
vu

INTRODUCTION
We file this Petition for the honor of and out of
love for our Lord and Savior, Jesus Christ, and our
beloved family member, William A. Konieezko, the
very, very precious husband and father, for whom
we must have justice. Also, we seek justice to
definitely stop the evil perpetrators of malicious
wrongdoing, so that other innocent people will not
be harmed by them.
IMPORTANCE OF JURISDICTION
This case was illegally dismissed with prejudice
on November 6, 2017, at a hearing that was
scheduled in violation to the Equal Protection
clause of the Constitution of the United States,
with the respondents being illegally enabled by
Judge Robert LeBlanc to obstruct justice by
withholding evidence, with the respondents being
guilty of bad faith litigation, including lying at the
hearing, and without us having had a full and fair
opportunity to be heard.
There are very compelling reasons, including
those set forth in our Petition, for this Court to
grant a writ of certiorari.
All three of the lower tribunals - the Florida
Ninth Judicial Circuit Court, the Florida Fifth
District Court of Appeal, and the Florida Supreme
Court have violated" our rights.
1

v

There have been unconscionable violations
including, but not limited to, very egregious and
unethical violations of our rights guaranteed
by the Constitution of the United States, including,
but not limited, to, our right to be heard, freedom
of speech, freedom of religion, equal protection,
and our right to petition the government for a
redress of grievances. With these violations, there
have been unfair, arbitrary, and' capricious
abuses of power in violation of 18 U-S.C. 242
and 42 U.S.C. 1983.
The Rules of SCOTUS indicate the character
of the reasons considered when granting a petition
for a writ of certiorari. Pertinent to this case is
Rule 10 Cc), “a state court...has decided an
important federal question in a way that conflicts
with relevant decisions of this Court.”
There have been state court judges, and also
clerks, who have decided that provisions of the
federal constitution, the Constitution of the United
States, are provisions that they can ignore, deprive
us of, and not uphold, even in violation of their
oaths. These derisions to violate our rights conflict
wirirfeleyan^derisicflasef-this Court; esireridHy the
two United States Supreme Court cases, Hamdi v.
Rumsfeld (2004) and Rasul v. Bush (2004). We
presented this argument in our petition on page 2.
This Court derided that “enemy combatants” would
have a “fair opportunity” to be heard “before a
neutral decision-maker.”
2

It is VERY, VERY UNFAIR that terrorists have
been granted rights that we have been wrongfully
deprived of. There have been MANY EGREGIOUS
AND UNCONSCIONABLE VIOLATIONS of our
right to have a “fair opportunity* to be heard
“before a neutral decision-maker” including, but
NOT LIMITED TO. those stated herein.
VIOLATIONS OF OUR RIGHT TO HAVE A
“FAIR OPPORTUNITY” TO BE HEARD “BEFORE
A NEUTRAL DECISION MAKER* IN FLORIDA’S
NINTH JUDICIAL CIRCUIT COURT:
- Contrary to the false misrepresentations of the
respondents, we DID file motions to disqualify the
very unfair, biased judge, Robert LeBlanc, and also
made motions to disqualify him during the
November 6, 2017 hearing, especially because of
his violations of our rights to equal protection and
to be heard, which are guaranteed by the
Constitution of the United States. We filed into the
record Statements of Evidence pertinent to this
hearing and also a USB fiashdrive with a recording
of the hearing. Below are important statements,
from the hearing, which were made by Lawrence
W. Konieczko (LW) and Laurie F. Konieczko (LF).
04:37 LF: .....Frances Konieczko, who’s
heartbroken over her husband who she was
married to for 57 years, and when she read of the
betrayal of trust of Florida Hospital saying there
was a signed “Do Not Resuscitate” form, and none
of us has ever signed that or seen it, she was very,
very upset.
3

05-05 LF: (Speaking of William Konieczko) He
has never signed it, he absolutely never
signed it!
05-08 LW: He never signed it.
05-10 LF: And we know that.
05:12 LF: We know that because she Speaking
with
him
(William)
of Frances)
was
almost all the time in the hospital. And so was he
(speaking of Lawrence).
05-18 LW: I was with her (Frances) the whole
time.
05-20 LF: And we discuss everything. We are a
close family.
05-21 LW: He (William) never signed it.
05-22 LF: And furthermore, when doctors and
nurses were pushy and saying my father
was unresponsive, my brother (Lawrence) went to
my father and placed his hand in the hand of my
mother and said, “If you want us to continue to be
doing everything possible to give you lifesustaining treatment and everything to help
you live, squeeze [my mother’s] hand,” and he took:
her hand and squeezed it very, very, very, very,
hard for a long time and did not let go. (LF chokes
up with emotion.)
4

15-06 LF: The complaint needs to be amended^
it hasn’t been amended one time.
15-16 LF: _the evidence. We’ve said over and
over...through the documents, over and over we say
we object to you obstructing justice...with the
“Do Not Resuscitate” form as I just stated and read
to you.
16:39 LF: ...you are obstructing justice...
you wouldn’t let us see the “Do Not
Resuscitate” form.
17:05 LF: I already motioned to disqualify you.
We want to write that motion out.

17:15 LF: No right during this hearing for
how you’re being unfair It’s unfair that you
wont wait for us to have an amended complaint,
you wont wait for us to have more evidence. That’s
very unfair and you’re being very biased, we hereby
motion to disqualify judge.
17-46
denied....

dudge L:

Motion to Disqualify is

17:51 LF: By law, we should be able to write
out our Motion to Disqualify now at this
hearing.
5

18-00 LF: By law we should be allowed to write
it out.
18-27 LF: We are not having a full and fair
opportunity to argue this motion at this time
because he is not giving us a fair and hill
opportunity to argue.
18-41 LF: I said I’ve got a whole set of sheets
here...obviously we object to the Motion to Dismiss
in it’s entirety. We object that it’s frivolous and iffs
based on bad faith saying to remove the
Constitution of the United States...we are not
today having a full and fair opportunity to argue,
we must have one or more amended complaints
because when we get more evidence we shall be
able to amend the complaint more. We object to
not having a full and fair opportunity to argue. We
object...the defendants are guilty of obstruction of
justice and the Florida Hospital has betrayed our
trust...it is obvious that we must...have the right to
amend, and that is very clear in the Florida Rules
of Civil Procedure that we should have a right to
amend, we did not amend this one time and we
want to proffer that we shall be having
evidence to offer and we know that we shall and we
want to amend. (Judge LeBianc interrupts.)
2L19 LF: ...we did not have the evidence to
amend it with.
21-31 LF: I’m not done yet. Fm not done with
my argument__
6

22:01 LF: But Fm not done arguing. Tin not
done, I’ve got 12 pages here and Fm only
on page 3 .
22:09 LF:
here.

...Fm not done, I’ve got 12 pages

22-14 LF: No, Fve got 12 pages here. So I
motion to disqualify judge because I have 12
pages here of notes and I didn’t get to read them
aU.
22:33 LF: ...it’s only fair to cancel the hearing
because we did not have a full and fair opportunity
to argue, that would have been the fair thing to do.
22'-49 LF: But, I said, look, Fve got 12 pages of
notes here and you wouldn’t hear them.
22:56 Bailiff: ...the hearing’s over.
As can be seen from the select statements above,
we did NOT have a “fair opportunity" to be heard
“before a neutral decision-maker."
Subsequently, while the circuit court had
jurisdiction, based upon 38.10 of the Florida
Statutes, we filed a legallysufficient Motion to
Disqualify Judge LeBlanc, and after a total of 30
days, in which the court had jurisdiction, had
passed, he had not issued a decision on the motion.
7

OTHER VIOLATIONS Q¥ OUR RIGHT TO
HAVE A “FAIR OPPORTUNITY” TO BE HEARD
“BEFORE A NEUTRAL DECISION-MAKER” IN
THE FLORIDA FIFTH DISTRICT COURT OF
APPEAL:
On August 29, 2018, Lawrence W. Konieczko
hand-delivered to the Fifth District Court of Appeal
items which included six sealed envelopes, NOT
addressed to the clerk of court, but each addressed
to one of six fudges, which were Judges Torpy,
Orfinger, Cohen, Wallis, Palmer, and Evander, for
the envelopes to be served upon each of the judges,
being that each envelope contained a legallysuffieient motion to disqualify judge. Yet none of
these judges, who were all bound by law to
disqualify themselves, issued any decision in
response, and therefore violating our legal rights,
including, but not limited to, our right guaranteed
in the First Amendment of the Constitution of the
United States to petition the government for a
redress of grievances, thereby committing
egregious violations of 18 U.S.C. 242 and 42 U.S.C.
1983. We look to this Court to rectify this.
As a young woman, with no formal training in
the law, Frances K. Konieczko, brought cases
against government entities and represented those
who could not fight for themselves, because of being
disabled or elderly.

8

Frances would go before the judge and fearlessly
speak the truth. Each time the judge would listen
respectfully as she presented the facts and the law.
She won each case she brought and was highly
respected.
The beloved brother of Frances, and dearly loved
uncle of Lawrence and Laurie, was not an “enemy
combatant,” but he was an American soldier who
joined the military on his own initiative and had
the heartbreaking experience of being in the second
wave on Omaha beach on D-Day and seeing many
of his buddies in agony dying around him as he
himself was pinned down and injured. Then later,
he had the very heartbreaking experience of
entering the Dachau concentration camp by way of
tank as one of the American soldiers who liberated
the prisoners. His heart broke as he saw the piles
of dead bodies and the prisoners who were still
alive looking like walking skeletons.
Also, the father of William, the grandfather of
Lawrence and Laurie, had been conscripted, as a
young man, to serve in the Russian army, but he
absolutely did not want to be a part of an evil army,
so, with God’s help, he escaped and defected, came
to the United States, and joined the United States
Army in which he served honorably during World
War I, and suffered severe injuries from mustard
gas, from which he eventually died.

9

Also, William Konieczko, the cherished
husband of Frances, and the beloved, loving, and
compassionate father of Lawrence and Laurie,
served honorably in the United States Army as a
Staff Sergeant and was very dedicated.
Neither William Konieczko, nor Frances
Konieczko, nor Lawrence Konieczko, nor Laurie
Konieczko have any criminal records at all
whatsoever. Yet, no matter how honorable our
family has been, it is TERRORISTS and ENEMY
COMBATANTS that have been given the right to
have a “fair opportunity7’ to be heard “before a
neutral derision-maker,77 while our family has been
wrongfully and unfairly deprived of that right.
We look to this Court to overturn these unfair
decisions.

CONSTITUTIONAL PROVISIONS
GUARANTEEING OUR RIGHTS
Our civil rights and rights guaranteed by the
Constitution of the United States must be
protected, including, but not limited to, our rights
to Equal Protection, our rights to Due Process, and
our rights contained in the First Amendment.

10

STATEMENT OF THE CASE AND FACTS
On December 1, 2016, we filed our Complaint
with the Florida Ninth Judicial Circuit Court for
these legally valid causes of action:
FRAUD/CONSPIRACY TO FRAUD;
INTENTIONAL INFLICTION OF EMOTIONAL
BISTEESS/CONSFIKACY TO INTENTIONAL
INFLICTION OF EMOTIONAL DISTRESS;
BREACH OF GOOD FAITH AND FAIR
DEALING/CONSPIRACY TO BREACH OF
GOOD FAITH AND FAIR DEALING
In 2013, we had presented documents of
authorization to the respondents and obtained a lot
of documents from them, but they have been
withholding certain evidence and obstructing
justice by illegal actions including, but not limited
to, not giving us a copy of the forged DNR form,
which they claim to have, but which no one in our
family has ever seen or signed. This is absolutely
unconscionable. Throughout the course of this case
we have emphasized this wrongdoing in more than
one court, with many judges having knowledge of
this, yet the judges have abused their power and
chosen to he complicit/in conspiracy with the
obstruction of justice of the respondents.
Judges have refused to make corrections to the
record, even when we have had statements from an
Orange County Deputy Sheriff and an Orange
County Deputy Clerk providing proof of the truth.
11

The respondents were not the only defendants in
the Complaint, there were also Doe defendants, yet
Fifth District Court of Appeal judges F. Rand
Wallis, Thomas Sawaya, and Wendy Berger
illegally instructed the lower tribunal to dismiss
the entire “case.” The lower tribunal was supposed
to have a hearing on this, but then it was canceled
on April 13, 2018, although that order, plus the
order of dismissal, were fraudulently falsified with
the date of April 11, 2018, according to different
sources, including the Florida Fifth District Court
of Appeal. We filed documents pertaining to this,
but no judge ever corrected this.
Below are statements from our Initial Brief to
This is a case about the loving, compassionate,
honest, decent husband and father, Christian
minister to the poor, homeless, and brokenhearted,
William A. Konieczko, and how coldhearted,
people
malicious,
evil
uncompassionate,
unconscionably betrayed the trust of and very
deeply wounded our family by intentionally and
maliciously failing to conduct themselves in an
ethical manner and according to the law, and by
egregious, evil, malicious disregard for the life of
the beloved William A. Konieczko and for the rights
of others.

12

Judges Cohen, Torpy, Evander, Palmer,
Orfinger, and Wallis do not have jurisdiction to
have any part in this case, being that they are
bound by law to disqualify themselves...It is very
important that there he fair judges who handle this
appeal because there must be just action. The
following standards of review apply to every issue:
Bias
Abuse of Discretion
Abuse of Power
Miscarriage of Justice
Wrongfully striking our documents, denying our
access to the courts, and depriving us of our rights
to be heard, are in direct conflict with other court
decisions, notably two United States Supreme
Court Cases, Hamdi v. Rumsfeld (2004) and Rasul
v. Bush (2004). It is unfair that terrorists have
been granted rights that we have been wrongfully
deprived of. Egregious violations of our rights,
including, but not limited to, our civil rights, our
constitutional rights, and our rights to due process,
especially our rights to be heard, have been
committed by judges who have abused their power
and gone against the Constitution of the United
States and the Rule of Law as they have expressly
construed provisions of the state and / or federal
constitutions) as being provisions that they could
ignore, deprive us of, and not uphold; even in
violation of their oaths.
The defendants should not be allowed
to continue to obstruct justice. We object to
not having the opportunity to, after obtaining
more evidence, amending the complaint.
13

In the Florida Rules of Civil Procedure, Rule
1.190 (a) states, “Leave of court shall he given
freely when justice so requires...”
There have been many cases supportive of
liberality in amendments, freely amending,
amending to bring out true facts, and amending to
cause cases to be decided on their merits.
Cases which were decided with one
more
are*
holdings
of
these
or
Colandrea v. King.\ 661 So. 2d 1250 (Fla. 2nd
DCA 1995)
Bostwick v. Bostwick, 346 So. 2d 150 (Fla. 1st
DCA 1974)
Bradham v. Hayes Enterprises, Inc., 306 So. 2d
568 (Fla. 1st DCA 1975)
Craig v. East Pasco Medical Center, Inc., 650 So.
2d 179 (Fla. 2nd DCA 1995)
Lazar v. Allen, 347 So. 2d 457 (Fla. 2nd DCA
1977)
Old Republic Ins. Co. v. Wilson, 449 So. 2d 421
(Fla. 3rd DCA 1984)
Gamma Development Corp. v. Steinberg, 621
So. 2d 718 (Fla. 4«* DCA 1993)

Associated TelevMon & CommmmaB&m, Me. f:
Dutch Pillage Mobile Homes of Melbourne, Ltd,
347 So. 2d 253 (Fla. 4* DCA 1977)
Ujcic v. City ofApopka, 581 So. 2d 218 (Fla. 5th
DCA 1991)
In re Grist’s Estate, 83 So. 2d 860 (1955)
Twyman v. Livingston, 58 So. 2d 518 (1952)
Marks v. Fields, 36 So. 2d 612, 160 Fla. 789
(1948)
14

Walker Fertilizer Co., for Use and Benefit of
Walker v. Cole, 197 So. 777, 144 Fla. 37,132 A.L.R.
536.
Matcher v. Chandler, 589 So. 2d 428 (Fla. 1st
DCA1991)
Walker v. Senn, 340 So. 2d 975 (Fla. Is6 DCA
1976)
EAC USA Inc. v. Kawa, 805 So. 2d 1 (Fla. 1st
DCA 2001)
Onmsta v. Beding Held, 689 So. 2d 409 (Fla. 5th
DCA 1997)
Kirkland By and Through Kirkland v. State
Dept, ofHealth and Rehabilitation
Services, 424 So. 2d 925 (Fla. 1st DCA 1983)
State Farm Fire and Cas. Co. v. Fleet Financial
Chip., 724 So. 2d 1218 (Fla. 5ft DCA 1998)
Carter v. Ferrell, 666 So. 2d 556 (Fla. 2™* DCA
1995)
RELlKFi
The illegal, unfair, unconstitutional order to
dismiss must be overturned.
The defendants/appellees must be ordered,
on
pursuant
to
the
authorizations
pages 93 and 94 in this Appendix, to immediately
confidentially mail to us (for us to review and
decide what to file with the court) the following- a copy of the forged DNR
- the full name of and records pertinent to the
so-called female respiratory therapist who went in
to see William A. Konieczko the morning of
December 1, 2012
15

- the fiill name of the coldhearted, rude ICU
Charge Nurse, Nancy
- the full names of the ICU nurses, Judy and
Mark
* any and all instructions and incentives horn
General Motors, Blue Cross Blue Shield Florida,
and Medicare specifically regarding William
Konieczko
- any and all instructions and incentives from
General Motors, Blue Cross Blue Shield Florida,
and Medicare as to how to treat / deny treatment of
elderly patients
• and all other information not yet given to us
Then, we must he the ones to prosecute the case
by any and all means, such as deposing people.
We must have the information and evidence
We object to all of the violations of our civil
rights and constitutional rights and want to be
treated fairly, to be heard, and to have our civil
rights and rights guaranteed by the Constitution of
the United States protected.
PURSUANT TO ALL APPLICABLE LAWS,
STATUTES, AND OTHER AUTHORITIES,
INCLUDING, BUT NOT LIMITED TO, THE
FIRST AMENDMENT OF THE CONSTITUTION
OF THE UNITED STATES OP AMERICA,
THE FOURTEENTH AMENDMENT OF THE
CONSTITUTION OF THE UNITED STATES OF
AMERICA, AND TITLE ^ OF THE UNITED
STATES CODE, SECTION 1983: THERE MUST
BE JUSTICE.
16

William Konieczko and Ms father served honorably
in the United States military with hopes that their
family lived in a country with liberty and justice for
all. It was shocking and appalling that there was
not justice in that courtroom on Nov. 6, 2017. This
is the United States of America, not a communist
country. What happened in that hearing should
never happen in the United States of America. Ir^
the United States of America these defendants and
defendants' attorneys should not be allowed to get
away with the wrongful things that they have done.
THERE MUST BE JUSTICE.”
The record from the lower tribunal was due on
October 23, 2018. On August 24, 2018 we had paid
the bill for it and filed instructions to have it
mailed final instructions to the head of the Appeals
Division of the lower tribunal to go ahead and
transmit the record to the Florida Fifth District
Court of Appeal, thinking that we could
supplement the record with corrections later.
After we sent the letter to the head of the
Appeals Division, we received an illegal order from
Florida Fifth District Court of Appeal judges
Wallis, Edwards, and Harris, dated October 16,
2018, falsely stating that the record was “past due”
and demanding that the record be at their court
early, by October 19, 2018. To give such short
notice is in violation of the Florida Rules of Civil
Procedure, besides, we did not even receive the
mailing until the week after October 19,2018.
17

Also, it is legally required that the lower tribunal
directly transmit the record, and we had already
communicated this, as stated above. Very
strangely, however, even though we have proof
from the USPS that the lower tribunal received our
instructions, they never sent the record at all to the
Florida Fifth District Court of Appeal, even though
we had paid for it, and have the receipt to prove it.
The Florida Fifth District Court of Appeal illegally
used' this as an excuse to dismiss the case, which
we did not know until after we had fried our Reply
Brief.
Judges Wendy Berger, Lambert, and Edwards
were complied / in conspiracy with this illegal
dismissal and would not accept our tamely-filed
Reply Brief. We served a motion for rehearing to
vacate the wrongful decisions upon Judge Wendy
Berger, with her name on an individual envelope to
her, and also served this motion upon Judges
Cohen, Torpy, Lambert, Orfinger, and Edwards.
Also, a motion for rehearing to vacate the illegal
October 16, 2018 order was served upon Judges
Wallis, Edwards, and Harris. The motions were
timely served. The judges of this court had been
illegally abusing their power by not letting us “file”
most documents, so we had to serve them instead.
None of these judges vacated their illegal
decisions, or did anything at all to rectify the
egregious, unconscionable violations of our rights
guaranteed by the Constitution of the United
States.
18

These illegal rulings must be overturned and
these judges who have violated their oaths to
uphold the Constitution of the United States should
be severely dealt with, according to the law. Their
violations of 18 U.S.C. 242 are unconscionable,
criminal violations.
As ran be seen by the documents in this
appendix from the Florida Supreme Court, a clerk
by the name of Tomasino was trying to block the
filing of the order of dismissal from the Florida
Fifth District Court of Appeal, therefore, we filed a
motion to Chief Justice Charles Canady to unstrike
the order that the clerk named Tomasino had
Instead of Chief Justice Canady
stricken.
rectifying this matter, another clerk dismissed the
case. We do know if any of the several documents
we had sent to Chief Justice Charles Canady
regarding this case and the other case pending in
this Court with a Petition for Rehearing, Case No.
18*1041, were ever given to him. These clerks
must be dealt with according to the law for their
egregious abuse of power in violating our rights
guaranteed by the Constitution of the United
States.

19

REASONS FOR GRANTING THE PETITION
Plaintiffs/Petitioners, seek for this Court to
protect our civil rights and constitutional rights,
grant justice, and overturn all of these illegal,
unconstitutional rulings. Pursuant to the First
Amendment of the Constitution of the United
States, it is of very great importance for this Court
to grant this writ, because this Court is the court of
last resort to redress these extremely important
grievances about how our civil rights and
constitutional rights have been shockingly,
egregiously, and unconscionably violated.
There has not yet been justice for the honor of
William as we have been prosecuting the civil raise
pertaining to how he was murdered at the Florida
Hospital Altamonte, recently renamed as
AdventHealth Altamonte Springs, with the entity
responsible for the records, now named
AdventHealth Orlando, illegally obstructing justice
by NOT fully acting upon legally executed
paperwork and giving us ALL of the necessary
records, especially a copy of the ILLEGALLY
FORGED DO NOT RESUSCITATE form,
which they claim to have, but which
NO MEMBER OF OUR FAMILY has ever seen
and NO &113ER OF OUR FAMILY has ever
signed.
There have been more violations of our rights in
the three lower tribunals, than have been
addressed herein.
20

CONCLUSION
For the foregoing reasons, and those stated in
our Petitions/Briefs filed in this Court for related
case no. 18-1041, in January 2019, March 2019,
and May 2019, for the efficient use of this Court’s
time, this Court should consolidate these two cases,
protect our civil rights and constitutional rights
which have been so egregkmsly violated, and grant
certiorari, as well as obtain all documents that the
courts have stricken and/or arbitrarily and illegally
refused to file, and also, to see the patterns of
illegal abuse of power, obtain and incorporate by
reference the documents filed with the Florida
These judges must be dealt with according to the
law, or it appears that they may not stop trying to
get away with abusing their power.
We look to this Court to overturn all unfair
decisions, including, but not limited to, the
following:
The illegal, unfair, unconstitutional order to
dismiss must be overturned.
The defendants/appellees must be ordered,
pursuant to the authorizations on pages 93 and 94
in this Appendix, to immediately confidentially
mail to ns (for us to review and deride what to file
with the court) the following:
A COPY OF THE FORGED DNR
21

- the fall name of and records pertinent to the
so-called female respiratory therapist who went in
to see William A. Konieezko the morning of
December 1, 2012
■ the fall name of the eeidhearted, rode ICU
Charge Nurse, Nancy
- the fall name of the ICU nurses, Judy and
Mark
- any and all instructions and incentives from
General Motors, Blue Cross Blue Shield Florida,
and Medicare specifically regarding William
Konieezko
- any and all instructions and incentives from
General Motors, Blue Cross Blue Shield Florida,
and Medicare as to how to treat / deny treatment of
elderly patients
and all other information not yet given to us.
Then, we must be the ones to prosecute the case
by any and all means, such as deposing people.
We must have the information and evidence
necessary to be able to amend the complaint and
accurately serve DOE defendants.
We object to all of the violations of our civil
rights and constitutional rights and want to be
treated fairly, to be heard, and to have our civil
rights and rights guaranteed by the Constitution of
the United States protected .
- as set forth in our Reply Brief for case no.
18-1041, especially on page 10, all of the Florida
Fifth District Court of Appeal judges who were
timeiy-served by us with legally-sufficient motions
to disqualify, must he disqualified, according to the
law.
22

- as set forth in our Reply Brief for case no.
18-1041, especially on pages 8-9, the fraudulently
falsified orders must instead show the TRUTH.
- as set forth in our Reply Brief for case no.
18-1041, especially on page 13, the respondents
must he ordered to give us a copy of the forged
DNR form as well as other evidence that they have
not given to us, as also set forth above, quoted from
our Initial Brief filed at the Florida Fifth District
Court of Appeal, as Mows:
- as set forth in our Reply Brief for case no.
18-1041,, especially on pages 8 and 10, Chief Judge
Lauten must abide by the law and appoint a new
judge to this case.
as set forth in the Petition for case no.
18*1041 and in this Petition the violations of the
Procedure must be declared as illegal and
unconstitutional, and this court must act to protect
our civil rights and constitutional rights which
have been violated.
as set forth in the QUESTIONS FOR
REVIEW" in this Petition, actions must he taken to
overturn wrongful actions against us and resolve
each of the issues stated in the nine QUESTIONS
FOR REVIEW.
Also, we would like to be informed of which
justices grant this Petition, and if any deny this
Petition, which justice(s) denied to take action to
protect our righte, as guaranteed be the
Constitution of the United States.
23

We have truly thought that all nine justices of
this Court would take action to protect our rights.
Is there any human being on this earth that YOU
love with all your heart? If YOU were seeking
justice for the honor of your murdered loved one,
wouldn’t you want there to be judges who gave you
a "fall and -fair opportunity to be heard and
PROTECTED YOUR RIGHTS?
We hereby give NOTICE OF INTENT to file
motions in recuse all of the justices of this court
who denied our Petition for Writ of Certiorari for
case no. 18'1041 in this Court, and also for those
who denied the Petition for Rehearing for case no.
18-1041. Therefore, we must he informed of who
these justices are. This is because we especially set
forth very clearly how two of the orders from the
Florida Fifth District Court of Appeal were
fraudulently falsified and we cannot feel that any
justice of this court has been or would be fair who
denied either of the above-mentioned petitions and
took no action at all to protect our rights
guaranteed by the Constitution of the United
States, especially by not overturning/vacating
orders that were obviously and definitely
fraudulently falsified. That is if our petitions were
not criminally tampered with, in the mail or
otherwise, before being considered by any justices
who personally considered them. This Court shall
receive investigative inquiries pertinent to these
concerns, initiated by us.
24

On July 27, 2019, we sent, by way of Priority
Mail Express, with the proof of delivery showing
delivery on July 20, 2010, an APPLICATION TO
JUSTICE CLARENCE THOMAS TO APPROVE
GUIDELINES FOR APPENDIX AND TO GRANT
for filing of
EXTENSION OF TIME
PETITION FOR WRIT OF CERTIORARI- This
document reads as follows:
“We hereby make this application to JUSTICE
CLARENCE THOMAS that he will rectify a
discrepancy regarding the feet that the SCOTUS
Clerk’s Office accepted having the respondents’
appendix to their brief, Med in the preceding case
in this Court, case no- 18-1041, with the judicial
orders having been photocopied and placed
sideways in the appendix (booklet), yet the Clerk’s
office would not allow for us to photocopy the
judicial orders and put them sideways in the
appendix (booklet). The Constitution of the United
States provides for us to have Equal Protection
under the law, with fairness in judicial
proceedings. It is only fair that we be treated
equally. Please grant for us to be approved to he
able to photocopy the orders and place them
sideways in the appendix (booklet).
Also, in the appendix for the SCOTUS case on
the Peace Cross, reduced-size photocopies of letters
and photocopies of other documents, which
appeared to he classified as evidence, were placed
into the appendix, Please grant for us to he
approved to be able to photocopy documents and'
place them in the appendix, as they were able to do
in the Peace Cross case.
25

Another reason that we are making this
application for an extension of time is that,
unexpectedly, we have had to spend extra time, and
will continue to spend extra time, pertaining to
confidential investigations into cziminaL tampering
of our mailings to SCOTUS and criminal hacking of
our computer, including blocking our computer
from accessing certain information from the U. S.
Senate, and blocking our computer from being able
to access certain websites, including the websites of
the Federal Bureau of Investigation, the
Department of Justice, and Sean Hannity. This is
a sad situation, knowing that there are such evil
criminals out there, and especially since it appears
that evidence has implicated members of law
enforcement as being the hackers.
Also, whenever court documents are due, there
is often evil criminal activity, such as vandalism to
our vehicle and/or property.
We have many
receipts for replacement tires for vandalized tires,
and a lot of other evidence. Even though these
matters are not specific issues of this civil case, at
this time, these situations have unexpectedly taken
up time.
We herby make application for an extension of
time to file the revised Petition for a Writ of
Certiorari, which is now due on August 6, 2019,
such that it will not be due until 60 (sixty) days
from the date of your order that will he issued in.
response to this application.
Thank you for your consideration.”
Today, instead of a much anticipated response
from Justice Thomas, we received the documents
back in the mail, from a clerk of this Court.
26

However, we still need Justice Thomas to clarify
guidelines for any appendix we may file in the
future.
Hie Declaration of Independence, the founding
document of this nation, and the forerunner to the
Constitution of the United States, speaks of the
importance of justice and acknowledges “the
Supreme Judge of the world.”
The Jewish prophet, Zechariah, as recorded in
the hook of Zechariah, said, "This is what the
Lord Almighty says' Administer true justice...”
(Zechariah 7:9), and also, “This is what the Lord
Almighty says...render true and sound judgment
in your courts ” (Zechariah 8:14^16).
“YOU SHALL KNOW THE TRUTH..”- John 8:32
“DO NOT DENY JUSTICE DUE TO...
PEOPLE IN THEIR LAWSUITS.” -Exodus23:6
“LET JUSTICE RUN DOWN AS WATERS,
AND RIGHTEOUSNESS
AS A MIGHTY STREAM.” - Amos 5:24
AT MS OWN TRIAL, JESUS CHRIST SAID,
“...I CAME TO TESTIFY TO THE TRUTH,
EVERYONE ON THE SIDE OF TRUTH
LISTENS TO ME;
- John 18-37
Frances K. Konieczko
Lawrence W. Konieczko
Laurie F. Konieczko
Self-Represented
PO Box 536253, Orlando, FL 32853
August 2019
27

